<html>
<title> - EXAMINING THE INTERNATIONAL CLIMATE NEGOTIATIONS</title>
<body><pre>[Senate Hearing 114-205]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-205

                      EXAMINING THE INTERNATIONAL
                          CLIMATE NEGOTIATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 18, 2015

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://www.gpo.gov/fdsys
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-708 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 
 
 
 
 
 
 
 
 
 
 
 
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                  ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           NOVEMBER 18, 2014
                           OPENING STATEMENTS

Inhofe, Hon. James, U.S. Senator from the State of Oklahoma......     1
Capito, Hon. Shelley, Moore, U.S. Senator from the State of West 
  Virginia.......................................................     4
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     5

                               WITNESSES

Maurice, Julian Ku, A. Deane Distinguished Professor of 
  Congressional Law & Faculty Director of International Programs, 
  Maurice A. Deane School of Law at Hofstra University...........     7
    Prepared statement...........................................    10
Cass, Oren, Senior Fellow, Manhattan Institute for Policy 
  Research, Inc..................................................    19
    Prepared statement...........................................    21
Eule, Stephen, Vice President of Climate and Technology, U.S. 
  Chamber of Commerce Institute of 21St Century Energy...........    32
    Prepared statement...........................................    34
    Response to an additional question from Senator Whitehouse...    57
Waskow, David, Director, International Climate Initiative, World 
  Resources Institute............................................    65
    Prepared statement...........................................    67
Jacobson, Lisa, President, Business Council for Sustainable 
  Energy.........................................................   106
    Prepared statement...........................................   108

                          ADDITIONAL MATERIAL

Articles:
    Elloitt Negin; ExxonMobil is Still Spending Millions of 
      Dollars on Climate Science Deniers.........................   225
    SourceWatch; Manhattan Institute for Policy Research.........   230
    Office of the Press Secretary; Fact Sheet: United States 
      Support for Global Efforts to Combat Carbon Pollution and 
      Build Resilience...........................................   239
 
            EXAMINING THE INTERNATIONAL CLIMATE NEGOTIATIONS

                              ----------                              


                      WEDNESDAY, NOVEMBER 18, 2015

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
406, Dirksen Senate Office Building, Hon. Shelley Moore Capito 
(chairwoman of the committee) presiding.
    Present: Senators Capito, Inhofe, Barrasso, Crapo, Boozman, 
Sessions, Wicker, Rounds, Carper, Cardin, Whitehouse, Merkley, 
Gillibrand, Booker, and Markey.
    Senator Capito. The hearing will come to order.
    We have some unusual circumstances. I am not the chairman 
of the full committee; the chairman is sitting to my right, as 
you know, Chairman Inhofe. He is on the conference committee 
for the highway reauthorization, so he has asked to make some 
statements and then he is going to go to his meeting. So, with 
that, I will recognize Chairman Inhofe.

            OPENING STATEMENT OF HON. JAMES INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. I thank you, Madam Chairman. We actually 
have three members of the conference, the highway conference. I 
already talked to the witnesses and explained to them. It is 
very significant what is going on. We are actually going to 
have a formal conference on the highway reauthorization bill. 
That hasn't happened since 2005, so we are very excited about 
it. And I am sure that another conferee is Senator Fischer, so 
I am sure we will all be wanting to go over there.
    But she has graciously allowed me to make a brief opening 
statement, which I will do now, and I am sure that Senator 
Carper won't mind if I go ahead and make my statement.
    Senator Carper. I object.
    [Laughter.]
    Senator Inhofe. All right, good.
    Well, let me start by saying that all of our prayers are 
with the people and what has been happening in Paris. It is so 
regrettable.
    I thank the witnesses for being here today to discuss the 
international climate negotiations. Despite President Obama's 
constant rhetoric about transparency, we are a week and a half 
away from the start of the United Nation's twenty-first session 
of the Conference of Parties. This is the twenty-first year 
that we have had this, and several of us on this panel up here 
have had different ideas about what is to be accomplished 
there. My idea is nothing.
    I just sent a letter in July seeking information relating 
to the President's intended nationally determined contribution. 
Now, that is where he is supposed to be able to document what 
he wants, and he did send information in that he is going to be 
reaching between a 26 and 28 percent reduction in emissions, 
but failed to say how he is going to do this. So we tried to 
have a conference. We tried to have a meeting in this committee 
and asked the EPA to attend, and they refused to attend.
    Now, this is the first time in my experience in the years 
that I have been here, 8 years in the House and 20 years in the 
Senate, that the committee of jurisdiction making a request 
that someone appear and they don't appear. So I think there is 
a reason: because they don't know how the calculation of 26 to 
28 percent was working.
    Together we are especially here to discuss the potential 
legal form of the COP 21 agreement. I think that goes without 
saying. There have been a lot of things published about is it 
legal, is it binding. Until yesterday, when we had, in the 
Financial Times, Secretary Kerry announced that there would be 
no binding agreement from COP 21. No binding agreement from COP 
21. Now, that incurred the wrath of President Hollande of 
France, along with several other people. Anyway, that was an 
honest statement because there won't be any.
    When it comes to the financing, I know that a lot of people 
over there, the 192 countries would assume the Americans are 
going to line up and joyfully pay $3 billion into this fund, 
but that is not going to happen either.
    So, anyway, this is going to be very similar to the other 
20, so I am sure there will be many on this panel who will be 
attending. I don't plan to attend.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

       Prepared Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Let me start off by saying my prayers are with the city of 
Paris and all those who have been impacted by the attacks last 
Friday.
    We are a week and a half away from the start of the United 
Nation's 21st session to the Conference of Parties and have yet 
to hear directly from this administration on the president's 
international climate agenda. This is not due to a lack of 
outreach on our part, but rather a continued disrespect for the 
rule of law and on obstructionist approach to Senate oversight.
    I invited the EPA, CEQ and State Department to testify 
before the committee and provide missing information related to 
the president's 26 to 28 percent greenhouse gas emission 
reduction target (by 2025). According to our last expert panel 
on the subject, which included former Sierra Club Climate 
Counsel, David Bookbinder, the president's plan simply does not 
add up. Even Senator Boxer's witness from the World Resources 
Institute admitted that additional actions will have to occur 
for the targets to be met, which will likely come from the 
refining, cement and agriculture industries, among others.
    EPA and CEQ's response that they lacked involvement and 
relative expertise is not only counter to public records and 
press accounts, but completely unbelievable. Recently released 
agency documents related to the Keystone XL Pipeline decision 
further confirm that Administrator McMarthy has an 
authoritative role in State Department actions, especially when 
they concern the president's climate agenda and international 
perceptions. Just last week, it was reported (in Climatewire) 
that Administrator McCarthy meets weekly with White House staff 
alongside Secretary Kerry and Secretary Moniz to ``prepare for 
Paris'' and is likely going herself.
    If as Secretary Kerry recently stated, the administration 
does not have a problem with congress reviewing the Paris 
agreement, then I expect an affirmative response to testify 
from EPA, CEQ and the State Department in the new year.
    Primarily from press accounts, we know the presidents 
alongside international bureaucrats intend to produce an 
agreement of some form that commits countries to reduce 
greenhouse gas emissions over certain time periods. We have 
seen this type f agreement before, most recently with the Kyoto 
Protocol and there was never a question that if President 
Clinton wanted to make the United States a party to that 
agreement, the Senate had to be involved.
    With the formal submission of various countries ``intended 
nationally determined contributions'' (INDCs), we know the 
structure of emission reduction commitments has changed from a 
top-down Kyoto-style approach to a bottoms-commitments has 
changed for President Obama is the application of the 1992 
UNFCCC ratification agreement and its express limitations. 
Specifically, the caveat included in the Foreign Relations 
Committee report the ``[A] decision by the Conference of 
Partied to adopt targets and timetables would have to be 
submitted to the Senate for its advice and consent before the 
United States could deposit its instruments of reification for 
such and agreement.''
    If the president wished to produce something substantive 
from the Paris negotiations - and presumably stronger than 
Kyoto - there is no way around the Senate. However, if the 
president heeds the advice of other COP 21 participants and 
wished to bypass congress, then he will be limited to making a 
non-binding, political commitment with no means of enforcement, 
accountability, or longevity.
    Beyond the process, there is the financing element of these 
negotiations for the Green Climate Fund. The president would 
like to shut down livelihoods and ship American jobs overseas 
while imposing a cap and trade energy tax on the American 
people so he can pay for his international climate legacy that 
hinges on cooperation from rent-seeking developing countries 
lining up for a piece of the president's multi-billion dollar 
slush fund.
    This administration has shown time and time again that 
political perceptions carry more merit than any expert 
assessments, especially when they include technical or economic 
inconveniences. Beyond diplomatic grand-standing and a few good 
press releases, the only certain outcome of the Paris 
negotiations is increased global CO<INF>2</INF> emissions.
    The president's so-called ``Climate Action Plan'' has never 
been about saving the environment or the world from impending 
global warming doom. It is about making up for the 
embarrassment of Copenhagen and solidifying his environmental 
legacy. I, along with my Republican colleagues, am not willing 
to let him or any other United Nation's bureaucrat circumvent 
the Constitution in an attempt to imbed climate change policies 
whose net effort will do nothing more than undermine America's 
outlook for success.
    I thank the witnesses for being here today and look forward 
to their testimony.

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. I thank the chair and we wish good luck and 
quick work on the conference committee, because I think we are 
all anxious to have that piece of legislation before us. So I 
will go ahead and open, if that is OK with you, for my opening 
statements.
    I want to welcome the panelists, first of all, and the 
members, the senators here. Much of what Senator Inhofe has 
said is contained in my opening statement, but I think some of 
it bears repeating.
    Just yesterday we passed two bipartisan resolutions under 
the congressional Review Act, one of which I sponsored. And I 
brought those up because, in my opinion, they are inextricably 
tied to the upcoming climate negotiations. President Obama 
cannot meet his goal of 26 to 28 percent reduction of 
CO<INF>2</INF> emissions without the full implementation of 
this regulation, and we believe that that stands on shaky legal 
and political ground. The Senate has now formally rejected 
these rules and we expect the House to do the same, and then 
the President will have a chance to make his opinion known. But 
over half our States, 27 to be precise, have now sued the EPA 
to block these rules.
    Last week, as Chairman Inhofe said, it was reported that 
Secretary of State insisted that the international climate 
agreement expected to be reached in Paris was ``definitely not 
going to be a treaty,'' and Chairman Inhofe mentioned that he 
said there would be no binding agreement.
    This prompted French Foreign Minister Laurent Fabius to 
suggest that Secretary Kerry was ``confused.'' The French 
president then weighed in: ``If the agreement is not legally 
binding, there won't be agreement,'' as did the European Union, 
whose spokesperson was quoted as saying, ``We work on the basis 
that the Paris agreement must be an internationally binding 
agreement.''
    If major participants in the upcoming COP 21 negotiations 
cannot agree on the legal status of any forthcoming agreement, 
no wonder those of us here today have questions. Will this 
agreement be legally binding or not? If so, will it be 
submitted to the Senate for ratification, as required by the 
Constitution?
    Chairman Inhofe, as he mentioned, too, invited the EPA, the 
CEQ, and State Department to testify before the committee and 
provide missing information related to the President's 26 to 28 
percent greenhouse gas emissions target. EPA and CEQ have thus 
far demurred, saying they lack involvement and relative 
expertise.
    I share the chairman's hope that the Administration will 
reconsider and allow witnesses to come before this committee in 
the coming year, particularly given press reports such as last 
week when Climate Wire reported that EPA Administrator McCarthy 
meets regularly with White House staff, alongside Secretary of 
State Kerry and Secretary of Energy Munez to prepare for Paris 
and is likely going herself.
    The legal status of an agreement is one issue that 
negotiators must resolve. Financial payments demanded by 
developing countries from the United States and other countries 
are another, and I hope we will touch on those today.
    The President has pledged to send $3 billion to the Green 
Climate Fund. He included a $500 million request in his Fiscal 
Year 2016 budget. The House and the Senate, State and foreign 
appropriators, I am on the appropriation committee, have 
allocated zero dollars. It is important to make clear, I think, 
to the rest of the world, as climate talks approach, that 
Congress has the power of the purse.
    I look forward to hearing from our distinguished panel of 
witnesses. Again, I thank them for coming and that we have a 
robust discussion, as we always do on this committee. I have 
learned that in the short time I have been here.
    And I would like to recognize Senator Carper for an opening 
statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Madam Chair. It is a pleasure to 
have a couple of West Virginia kids up here leading the charge 
on this important day. Thanks for pulling this together and 
thanks to all of our witnesses for joining us on what is a much 
welcomed hearing.
    Today we are here to discuss, as we know, our Country's 
efforts to fulfill a promise that was made some 23 years ago, 
in 1992, to address global climate change. George Herbert 
Walker Bush was our president at that time, as you will recall. 
But in 1992, the United States and other countries around the 
world agreed to a treaty that established the United Nations 
Framework Convention on Climate Change. The goal, to find a way 
to limit global climate pollution and limit the impacts of 
climate change to preserve and protect our environment for 
future generations.
    In 1992, President Bush signed the treaty and the Senate 
subsequently ratified it. Today, there are 196 countries that 
are part of that treaty.
    Over the past 23 years, the United States and our treaty 
partners have held meetings, usually each year, to address 
these goals, and later this month the twenty-first meeting will 
take place in Paris. These negotiations are critical because to 
effectively address climate change we cannot act alone. We 
cannot do this alone. We have to work cooperatively with our 
neighbors around the world.
    There are a host of scientific studies that underscore the 
urgent need for action, but, for me, the most compelling factor 
in supporting efforts to address climate change is more 
personal. I live in the lowest lying State in America. We see 
every day the ravages of climate change and sea level rise. I 
have children, someday I hope to have grandchildren, and I want 
to make sure they have a real bright future in Delaware and 
other places throughout our Country and, frankly, around the 
world.
    The science is clear. Our future generations face no 
greater environmental threat. We face a lot of threats, but no 
greater environmental threat than the threat of climate change. 
We know the price of action pales in comparison to the cost of 
doing nothing. This is why I believe we have an absolute duty 
to fight to change our behavior, continue to change our 
behavior not only in Delaware and across the Country, but also 
around the world, to help stem the tide of climate change.
    When it comes to global challenges, the United States 
doesn't just sit back and wait for someone else to lead. We 
lead. This should be no different. When the challenge was 
fascism, when the challenge was communism, today terrorism, 
cyberattacks, the U.S. has led as the world has risen to face 
those challenges.
    Climate change is real. Global warming is real. Sea level 
rise is real. We see it, again, happening every day in my own 
State. We see it every day happening in Ben's State, over here, 
my neighbor to the east and to the south. The U.S. cannot do it 
alone, but we can provide leadership, and somebody needs to do 
that, and that should be us.
    Since the current Administration has retaken a leadership 
role on this issue, others have followed. Countries like China 
and Brazil, that have been hesitant before to make carbon 
reductions, have changed their tune. I think largely because we 
have acted.
    As someone, again, who was born in coal country, Beckley, 
West Virginia, but spent his entire adult life, most of his 
adult life in the lowest lying State in the Nation, I know this 
issue is complicated and I know compromises have to be made for 
all of us to survive in a low carbon world. However, let me 
conclude by saying I have confidence that this Administration, 
working in conjunction with 50 laboratories of democracies, our 
States across America, using common sense, using sound science, 
will find the right recipe.
    In closing, I encourage our Administration to continue its 
work to drive the international community toward a broader 
global agreement in Paris so that together we can successfully 
meet the challenges facing our planet and ensure a brighter 
future for our grandchildren and for their grandchildren.
    Thank you, Madam Chair.
    [The prepared statement of Senator Carper follows:]

            Statement of Hon Thomas R. Carper, U.S. Senator 
                       from the State of Delaware

    Madam Chairman, thank you for convening this hearing today, 
and thank you to our witnesses for joining us. I look forward 
to hearing your testimony.
    Today, we are here to discuss our country's efforts to 
fulfill a promise we made in 1992 to address global climate 
change.
    In 1992, the United States, and other countries around the 
world, agreed to a treaty that established the United Nations 
Framework Convention on Climate Change. The goals--find a way 
to limit global carbon pollution and limit the impacts of 
climate change to preserve and protect our environment for 
future generations.
    In 1992, President George H.W. Bush signed the treaty and 
Congress subsequently ratified it. Today, there are 196 
countries that are part of that treaty.
    Over the past 23 years, the United States and our treaty 
partners have held meetings, usually each year, to address 
these goals and, later this month, the 21st meeting will take 
place in Paris. These negotiations are critical--because to 
effectively address climate change we cannot act alone, we have 
to work cooperatively with our neighbors around the world.
    There's a host of scientific studies that underscore the 
urgent need for action but, for me, the most compelling factor 
in supporting efforts to address climate change is deeply 
personal.
    Being a parent has been a transformative experience in my 
life, and my love for my sons has inspired me to make the world 
a better place for them, their children, and their 
grandchildren.
    And the science is clear, our future generations face no 
greater environmental threat than the threat of climate change. 
We know the price of action pales in comparison to the cost of 
doing nothing.
    This is why I believe we have an absolute duty to fight to 
change our behavior--not only in Delaware and across the 
country, but also around the world--to help stem the tide of 
climate change.
    When it comes to global challenges, the United States 
doesn't often sit back and wait for someone to lead. We take 
the lead. Here should be no different.
    Fascism, Communism, Terrorism, Cyberattacks, the U.S. is a 
leader of the world. Climate change is real. Global warming is 
real. Sea level rise is real. We see it happening every day. 
The U.S. can't do it alone, but we can provide leadership.
    Since the administration has retaken a leadership role on 
this issue, others have followed. Countries like China and 
Brazil that have been hesitant to make carbon reductions have 
changed their tune because we have acted.
    As someone who was born in coal country--Beckley, West 
Virginia--but spent his adult life in the lowest lying State in 
the nation--I know this issue is complicated. I know 
compromises have to be made for all of us to survive in a low-
carbon world.
    However, I have confident that this administration, and 
future administrations, working with 50 labs of democracy in 
the states, using coming sense and sound science, will find the 
right compromises.
    In closing, I encourage the administration to continue its 
work to drive the international community toward a broader 
global agreement in Paris, so that, together, we can 
successfully meet this challenge facing our planet and ensure a 
brighter future for our grandchildren and for their children.

    Senator Capito. Thank you, Senator.
    We will begin to hear testimony from our witnesses. I am 
going to introduce everybody briefly and then we will begin 
with Mr. Ku.
    Mr. Julian Ku, who is the Maurice A. Deane Distinguished 
Professor of Constitutional Law & Faculty Director of 
International Programs, that is one long title, at the Maurice 
A. Deane School of Law at Hofstra University. Next we will hear 
from Mr. Oren Cass, who is Senior Fellow at the Manhattan 
Institute for Policy Research, Incorporated. Next we have Mr. 
Steven Eule, Vice President of Climate and Technology, U.S. 
Chamber of Commerce Institute for 21st Century Energy. We have 
Mr. David Waskow, Director, International Climate Initiative, 
World Resources Institute. And then we have Ms. Lisa Jacobson, 
President, Business Council for Sustainable Energy.
    Again, thank you all. We will have 5 minute statements. 
Your full statements have been submitted to the record.
    Mr. Ku.

    STATEMENT OF JULIAN KU, MAURICE A. DEANE DISTINGUISHED 
     PROFESSOR OF CONGRESSIONAL LAW & FACULTY DIRECTOR OF 
   INTERNATIONAL PROGRAMS, MAURICE A. DEANE SCHOOL OF LAW AT 
                       HOFSTRA UNIVERSITY

    Mr. Ku. Thank you, Madam Chairman. I want to thank the 
chairman, the ranking member, the members of this committee for 
inviting me to participate in today's hearing.
    As you just noted, my name is Julian Ku. I am Professor of 
Law at Hofstra University in New York, and my academic research 
focuses on the relationship between international law, 
international agreements, and the United Constitution. My 
testimony today will consider the requirements and limitations 
under the Constitution for an agreement relating to climate 
change.
    In my written testimony I review the legal status of each 
kind of international agreement; a treaty, a congressional 
executive agreement, a sole executive agreement. And I also 
explain my written testimony why I believe the Paris agreement 
should be submitted to the Senate for its approval if that 
agreement contains legally binding emissions reduction targets 
and timetables. And I am happy to take questions on that issue 
particularly if members of the committee are interested.
    But for the purposes of my oral remarks, I want to focus on 
the possibility that the Paris agreement will contain non-
legally binding political commitments. I think this is the 
direction that the Administration is heading.
    In response to a letter from Senator Bob Corker, the State 
Department has indicated that the United States is not seeking 
an agreement in which the parties take on legally binding 
emissions targets, and this response means that, at the heart 
of the Paris agreement, the emissions targets will not be 
legally binding if the United States gets it way in Paris.
    Now, I do not have any constitutional objection to the use 
of a political commitment in the manner described by the State 
Department as long as all parties understand what a political 
commitment, as opposed to a legally binding commitment, is.
    By making a political commitment, the United States would 
not owe any legal obligations to foreign countries under 
international law to reach any particular emissions reductions 
target. And as a political commitment, no future president or 
Congress would be bound under U.S. law to reach these emissions 
targets.
    So, as a matter of law, a non-legally binding Paris 
agreement would be no different than the President giving a 
speech saying I promise to reduce emissions or reach certain 
emissions targets in future years. However, as Madam Chairman 
noted, press reports indicate that other countries in Paris are 
expect the agreement to be a legally binding agreement. I also 
will quote again the statements from France's President, 
Francois Hollande, in which he said if the agreement is not 
legally binding, there won't be agreement, because that would 
mean it would be impossible to verify or control the 
undertakings that are made.
    So statements like this by our treaty partners, or 
potential treaty partners, will make it tempting for U.S. 
negotiators to call the Paris agreement legally binding while 
they are in Paris, while at the same time assuring Congress it 
is not legally binding. And I think this kind of deception, or 
at least some confusion, is troubling because it either results 
in misleading foreign governments as to what the United States 
is promising or it results in the President violating the 
Constitution by concluding an agreement on his own authority as 
a sole executive agreement.
    So as I explained in my written testimony, I don't believe 
the Constitution allows the President to use a sole executive 
agreement without any approval from Congress to legally bind 
the United States to particular greenhouse gas emissions 
targets. And a lack of clarity on the legal nature of the Paris 
agreement could spur future litigation where a plaintiff might 
sue, for instance, to demand U.S. compliance with a legally 
binding Paris agreement.
    So, for this reason, if the Paris agreement is finalized 
with political commitments, as Secretary Kerry and the 
Department of State seem to indicate, I recommend that the 
Senate request that the Administration identify publicly which 
particular provisions of the Paris agreement, if any, are 
legally binding and which particular provisions are just 
political commitments. Such an explanation ideally should take 
the form of a public statement by a senior member of the 
Administration, ideally Secretary of State Kerry himself, that 
reviews each provision of the Paris agreement and explains what 
is binding and what is not.
    Such a statement would make it clear that the Paris 
agreement is or is not binding under domestic or international 
law and such a statement would also make clear, if it is not 
binding, that no future U.S. president or Congress is bound to 
fulfill the substantive obligations in the Paris agreement, and 
also shield a future president from litigation on this 
question.
    So thank you. I would be happy to take questions on other 
issues, if you are interested.
    [The prepared statement of Mr. Ku follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Senator Capito. Thank you, Mr. Ku.
    Mr. Cass.

STATEMENT OF OREN CASS, SENIOR FELLOW, MANHATTAN INSTITUTE FOR 
                     POLICY RESEARCH, INC.

    Mr. Cass. Thank you for inviting me today. My name is Oren 
Cass. I am a Senior Fellow at the Manhattan Institute for 
Policy Research.
    My primary message to the committee is this: climate 
negotiations no longer bear a substantial relationship to the 
goal of sharply reducing greenhouse gas emissions. Rather, the 
upcoming Paris conference will focus on a commitment by 
developed nations, including the United States, to transfer 
enormous sums of wealth to poorer countries.
    This outcome is not surprising to those skeptical that U.S. 
so-called leadership on climate policy could persuade the 
developing world to forgo economic growth for the sake of 
emissions reductions. However, it differs dramatically from the 
popular narrative in which Paris represents the historic 
culmination of a worldwide process to bring countries together 
and act on climate.
    My written testimony makes three points which I will 
summarize here.
    First, the negotiating process is specifically designed to 
produce an easy consensus and excuse inaction. It relies upon 
each country announcing an intended nationally determined 
contribution, or INDC, that represents its proposed actions and 
emissions reductions. However, the contents of the INDC itself 
are entirely discretionary. There is no requirement that cuts 
achieve certain levels or that the INDC even use consistent 
formats, metrics, or baseline. There is also no consequence for 
missing a plan's goals.
    Boosters are highlighting the INDC-driven structure and the 
parade of submitted plans as proof that the world can take 
meaningful action on climate. That is exactly backward. 
Negotiations have followed this course of discretionary, 
unenforceable pledges only because the positions of the 
countries are so irreconcilable that no substantive agreement 
is possible.
    And that brings to me to my second point, which is that 
attempts at so-called leadership, as Senator Carper described 
in his introduction, have not spurred others to action. My 
written testimony details the various manipulations that have 
produced impressive estimates for INDC impact. However, these 
use a century's worth of escalating efforts, not the actual 
commitments made, or else they compare the actual commitments 
to plainly incorrect baselines that the UNIPCC does not 
recommend. And this is precisely the basis for positive-seeming 
estimates cited in Mr. Waskow's testimony as well.
    A more realistic interpretation of the analyses suggest 
total impact of all the INDCs is less than 0.2 degrees Celsius, 
and using the U.N.'s own A1B baseline for longtime standard, 
there is no improvement at all. Country-by-country analysis 
tells the same story. China has committed to reaching peak 
emissions around 2030, but studies consistently show they were 
already on this trajectory.
    India's commitment manages to be even weaker. The most 
obvious reference point is in the INDC itself. India reports 
that energy efficiency improved more than 17 percent in that 
country between 2005 and 2012. India could improve only half as 
fast going forward and still meet the goal that it set for 
itself.
    Now, such efforts have received loud applause from the 
White House, from the media, and by NGO's demanding climate 
action. But if the INDC process relies on peer pressure and so-
called naming and shaming those who drag their feet, then 
cheerleading for empty non-commitments destroys the premise of 
the entire enterprise. One might even conclude that political 
point-scoring has taken precedence over actually addressing 
climate change, which brings me to my third point.
    The Paris negotiations are not about emissions reduction; 
they are about cash. The developing world expects developed 
countries to offer more than $100 billion per year in what is 
called climate finance. The rationale for the money, the source 
of the money, and the use of the money are all unclear. 
Developing nations believe they are owed a ``ecological debt'' 
for past developed world emissions and also owed 
``reparations'' for the damage from storms they link to climate 
change.
    Now, these are plainly non-starters for the United States. 
But the developing world is also asking to be reimbursed the 
cost of mitigation measures they take. India alone says in its 
INDC it needs $2.5 trillion between now and 2030. But if the 
INDCs represent business as usual, funding is clearly 
inappropriately.
    Realistically, developed world leaders are pursuing a 
transaction in which, having staked their political capital and 
their legacies on achieving an agreement, any agreement, they 
will now pay developing nations to sign on the dotted line.
    To conclude, we should worry that U.S. negotiators and 
their colleagues desperate to produce an agreement will commit 
dollars from taxpayers that they cannot actually develop and 
get nothing in return. The Senate should preempt any purchase 
of a piece of paper. A clear, simple resolution rejecting 
enormous transfers of wealth from the United States to other 
countries would highlight the issue for the American public, it 
would tie negotiators' hands, and it would ensure that any 
future climate change negotiations actually focus on climate 
change.
    Thank you again for the opportunity to appear before the 
committee, and I look forward to answering your questions.
    [The prepared statement of Mr. Cass follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Senator Capito. Thank you.
    Mr. Eule.

   STATEMENT OF STEPHEN EULE, VICE PRESIDENT OF CLIMATE AND 
TECHNOLOGY, U.S. CHAMBER OF COMMERCE INSTITUTE OF 21ST CENTURY 
                             ENERGY

    Mr. Eule. Thank you, Senator Capito, Senator Carper, and 
members of the committee. This hearing could not be timelier. 
As the Framework Convention on Climate Change meeting in Paris 
draws closer, it is important for policymakers to take a clear-
eyed view of what a new post-2020 agreement might hold.
    The main points I would like to make, which are detailed in 
my written testimony, are as follows.
    First, the Obama administration's unilateral emissions 
reductions commitment for Paris is unrealistic and doesn't add 
up. We estimate that 41 to 45 percent of the Administration's 
emission target remains unaccounted for; and that is assuming 
EPA's Clean Power Plan survives court scrutiny, a big if. 
Selling such an uncertain plan internationally may prove very 
difficult.
    Second, the emission goal nations have offered are hugely 
unequal and will not change appreciably the rising trajectory 
of global emissions. While the United States, Europe, Japan, 
and a few others have offered large emission cuts, nearly all 
developing countries, particularly the large emerging 
economies, have offered little beyond business as usual. A 
recent report from the Framework Convention estimates that even 
in the unlikely event all country pledges are implemented to 
the letter, global emissions will still rise about 18 percent 
between 2010 and 2030, within or close to the range of where 
emissions were headed anyway. Given how the Framework 
Convention is structured, this should surprise no one.
    Third, the disparity in national commitments results from 
the fact that most countries place a greater priority on 
economic development than they do on cutting emissions of 
greenhouse gases. More than a billion people worldwide lack 
access to the modern energy services that could lift them out 
of poverty. Coal will remain for some time the fuel of choice 
for electrification in developing countries. Using data from 
plants, we estimate that on the eve of the Paris climate talks, 
1.2 trillion watts of new coal-fired power plants are under 
construction or planned throughout the world. That is about 3.5 
times the capacity of the entire U.S. coal fleet. A carbon 
constrained world this is not.
    Fourth, the Administration's plan will likely result in 
emissions from the U.S. leaking to other countries, merely 
moving, not reducing them. The United States has a tremendous 
energy price advantage over many of its competitors. 
Overregulation from EPA, however, could force energy-intensive 
industries to flee to other countries, similar to what we are 
seeing in Europe, where energy costs to industry are two to 
four times higher than here in the United States.
    Fifth, developing countries will not undertake any 
meaningful commitments without large doses of financial aid. 
China, for example, has proposed that developed countries kick 
in 1 percent of their annual GDP from 2020 on, which in 2014 
would have implied a U.S. contribution of $170 billion. Other 
suggestions are equally extravagant. Whatever the final finance 
provisions look like, a great deal of the U.S. share of this 
funding will have to be appropriated by the Congress.
    Sixth, technology is the key. At its most fundamental 
level, reducing greenhouse gas emissions is a technology 
challenge. Existing technologies can make a start, but, as we 
have seen, they are not capable of significantly cutting 
emissions on a global scale and at an acceptable cost. That is 
why the chamber will continue to emphasize energy efficiency 
and policies designed to lower the cost of alternative energy 
rather than raising the cost of traditional energy.
    Finally, there is the larger question about the real goal 
of the Framework Convention. The organization's Executive 
Secretary, Christiana Figueres, recently had this to say about 
the Paris deal: ``This is the first time in the history of 
mankind that we are setting ourselves the task of 
intentionally, within a defined period of time, to change the 
economic development model that has been reining for at least 
150 years, since the industrial revolution.'' The same free 
enterprise economic model Secretary Figueres wants to discard 
is the same model that has produced the largest flourishing of 
human health and welfare in all of history. The rest of the 
world understands that affordable, available, and scalable 
energy is not the problem, it is the solution.
    Given all this, it seems clear that the Paris agreement, 
whether it has legal force or not, should be submitted to the 
Congress for its approval; otherwise, it is hard to see how 
anything agreed to in Paris will be binding on any future 
administrations or congresses.
    Back in 1997, the Clinton administration offered up an 
unrealistic U.S. goal and, disregarding clear guidance from the 
Senate, signed the Kyoto Protocol, a treaty it knew was 
political poison and therefore never bothered to submit to the 
Senate for its advice and consent. It now looks like the Obama 
administration is set to repeat the mistake of signing onto a 
lopsided deal and making promises future presidents and 
congresses may be neither willing nor able to keep.
    As the late, great Yogi Berra might have said, it's daj` vu 
all over again. Thank you.
    [The prepared statement of Mr. Eule follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
      
    Senator Capito. Thank you.
    Mr. Waskow.

  STATEMENT OF DAVID WASKOW, DIRECTOR, INTERNATIONAL CLIMATE 
             INITIATIVE, WORLD RESOURCES INSTITUTE

    Mr. Waskow. Good morning and thank you, Senator Capito and 
Senator Carper. My name is David Waskow and I am the Director 
of the International Climate Action Initiative at the World 
Resources Institute, a non-partisan, nonprofit environmental 
think tank.
    My testimony this morning makes three main points. First, 
taking action on climate change can bring substantial economic 
benefits and is in the national interest of the United States. 
A growing body of evidence shows that economic growth can in 
fact go hand-in-hand with efforts to reduce emissions of 
greenhouse gases, and recent experience of the national and 
State levels demonstrates that we can achieve both, a 
prosperous, low carbon future by harnessing key drivers of 
economic growth such as more efficient use of energy and 
natural resources, smart infrastructure investments, and 
technological innovation.
    Businesses have recognized the economic value of action as 
well. More than 80 major global companies, including a number 
of U.S. companies such as Dell, Coca-Cola, General Mills, and 
Procter & Gamble, have recently committed to set emission 
reduction targets in their own supply chains that are in line 
with science.
    Taking this action is also essential because, if nations 
fail to come together to combat climate change, the U.S. will 
suffer billions of dollars of damage to agriculture, forestry, 
fisheries, and coastal areas; and a recent report from the CAN 
Military Advisory Board of retired, high-ranking military 
officers, highlighted the growing threats to national security 
from the effects of climate change as well. It is thus in our 
national interest to act at home and to work with other 
countries to achieve an international agreement where all 
countries act together and where the most severe impacts in the 
United States can be avoided.
    My second theme: the U.S. emissions reduction target 
announced this past March is in fact achievable; ambitious, but 
achievable. We can meet this target using existing Federal laws 
combined with action by the States. Well-designed policies can 
accelerate recent market and technology trends in renewable 
energy, energy efficiency, alternative vehicles, and in other 
areas to meet the 26 to 28 percent below 2005 pledge by 2025. 
WRI's recent report, ``Delivering on the U.S. Climate 
Commitment,'' shows several pathways to get there.
    We can achieve this target while generating multiple co-
benefits and maintaining economic growth. For example, the 
Clean Power Plan will result in reduced exposure to particulate 
pollution and ozone, and EPA estimates that these health and 
other benefits are worth $32 billion to $54 billion.
    And then, third, leadership by the United States is paying 
significant dividends, helping to spur greater action by all 
countries around the world. In the lead-up to the Paris 
agreement, more than 160 countries, 119 of them developing 
countries, have submitted national climate plans, representing 
over 90 percent of global emissions. Countries like China, 
where reductions in coal use are already taking place, are 
taking unprecedented action.
    These national climate plans will deliver significant 
reductions in emissions. The International Energy Agency 
estimates a shift in global average temperature rise to 2.7 
degrees Celsius, down from almost 4 degrees given business as 
usual policies. It is not enough yet, but it is a significant 
step.
    Moreover, the agreement will be reached between all 
parties, all countries at the climate summit in Paris and is a 
major step forward in meeting U.S. objectives in this venue. 
Most important, this will be a universal agreement applicable 
to all. Based in and implementing the U.N. Framework Convention 
on Climate Change, which was ratified by the Senate in 1992 by 
voice vote, the Paris agreement will involve action to reduce 
emissions by all countries, both developed and developing, and 
its structure based on nationally determined plans has enabled 
broad-based participation and sets a new pathway for 
international action.
    The agreement will also include vital provisions on 
transparency and accountability, and it should ensure that all 
countries continue to move forward in a regular and timely way 
toward a commonly understood goal. And, finally, it can help 
mobilize the investment needed for low carbon and climate-
resilient economies from an array of countries, including 
developing countries, and from the private sector, and it can 
address the serious climate-related impacts experienced around 
the world, especially by the most vulnerable countries.
    To conclude, the actions that countries are taking around 
the world, along with the international framework for those 
efforts, should be viewed as a significant success for the 
United States and its leadership role. Meeting the global 
challenge of climate change requires global solutions with 
action by all. The world is now on the cusp of an international 
agreement that will realize that vision.
    Thank you.
    [The prepared statement of Mr. Waskow follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Senator Capito. Thank you.
    Ms. Jacobson.

  STATEMENT OF LISA JACOBSON, PRESIDENT, BUSINESS COUNCIL FOR 
                       SUSTAINABLE ENERGY

    Ms. Jacobson. Thank you, Senator Capito. Thank you, Senator 
Carper and members of the committee.
    The Business Council for Sustainable Energy is a broad-
based industry association and we represent companies and other 
trade associations in the energy efficiency, renewable energy, 
and natural gas sectors. Since its founding in 1992, the 
Council has been advocating for policies at the State, 
national, and international levels that increase the use of 
commercially available clean energy technologies, products, and 
services.
    As an important backdrop to my testimony, the Council would 
like to share some of the findings from the 2015 ``Sustainable 
Energy in America Factbook.'' The Factbook was researched and 
produced by Bloomberg New Energy Finance, and commissioned by 
the Council. It is a quantitative and objective report intended 
to be a resource for policymakers with up-to-date, accurate 
market information. Its goal is to offer important benchmarks 
on the contributions that sustainable energy technologies are 
making in the U.S. energy system today. It also provides 
information on finance and investment trends.
    The 2015 edition of the Factbook points to the dramatic 
changes underway in the U.S. energy sector over the past 
several years. Traditional energy sources are declining, while 
natural gas, renewable energy, and energy efficiency are 
playing a larger role. These changes are increasing the 
diversity of the Country's energy mix, improving our energy 
security, cutting energy waste, increasing our energy 
productivity, and reducing air pollution and greenhouse gas 
emissions.
    The Factbook also shows that the U.S. economy is becoming 
more energy productive and less energy intensive. By one 
measure, U.S. gross domestic product per unit of energy 
consumed, productivity has increased by 54 percent since 1990. 
Between 2007 and 2014, total energy use fell by 2.4 percent, 
while GDP grew by 8 percent. This was driven largely by 
advances in energy efficiency in the transportation, power 
generation, and building sectors. Of note, energy-related 
carbon dioxide emissions decreased by 9 percent in the 2007 and 
2014 time period.
    BCSE members in the energy efficiency, natural gas, and 
renewable energy sectors offer readily available, low carbon 
and zero carbon energy solutions. This portfolio of 
technologies can be used today to provide reliable, affordable, 
and clean energy options for public and private sector 
customers. In 2014, U.S. investment in clean energy 
technologies reached $51.8 billion, and these sectors are 
providing hundreds of thousands of well-paying jobs in this 
Country.
    The Council will bring a delegation of its members to 
attend the COP 21 as business observers. This organization has 
consistently engaged in the international climate change 
process since the early 1990's. BCSE participates in this 
process to offer information on deployment trends, technology 
costs, as well as policy best practices. Council members view 
the climate change negotiations as a valuable forum to share 
information on policy frameworks and to help inform the policy 
choices of countries looking to reduce greenhouse gas emissions 
and deploy clean energy options.
    Further, Council members view the outcomes of the 
international climate change negotiations as important signals 
to the market that countries are serious about investing in low 
carbon solutions. These signals will serve to reduce the 
uncertainty that can stall private sector investment.
    U.S. Government leadership and engagement in the 
international climate change process supports U.S. business 
interests and expands clean energy business opportunities 
outside our borders. Further, U.S. leadership increases the 
ambition of other nations and helps showcase U.S. technology 
innovations and policy frameworks. It also helps protect U.S. 
business interests, such as protection of intellectual property 
rights.
    The Council's coalition calls for governments to deliver a 
clear, concise, and durable climate change agreement at COP 21. 
With over 91 percent of global emissions and 90 percent of 
global population covered by the intended, nationally 
determined contributions of 161 countries, nations are showing 
a collective commitment to spur investment, innovation, and 
deployment of clean technologies in countries around the world.
    The Council believes that a well-structured Paris agreement 
can facilitate higher levels of investment over time. But as we 
look toward the next several decades, even higher levels of 
investment will be needed. We need to be focused in the 
trillions, not the billions of dollars in investment. The world 
energy markets cannot afford any backtracking at this critical 
time, and the business community is increasingly considering 
climate change and its impacts as part of its corporate 
strategies.
    Thank you.
    [The prepared statement of Ms. Jacobson follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
      
    Senator Capito. Right on the dot there. Very good. Thank 
you very much.
    I will begin with the questions, and I want to start with 
Mr. Ku, Professor Ku, because there are two questions that I 
would like to get to in my 5 minutes, and the first one is the 
legally binding issue, whether this is a treaty, whether it is 
a sole executive agreement. So it is kind of a two-part 
question.
    Some have argued that the Senate approved emissions 
reductions when it ratified the U.N. Climate Framework in 1992. 
But didn't the Bush administration then, in 1992, State that 
amendments to that Framework, especially ones establishing 
targets and timetables, should be presented as new treaties and 
have separate consents?
    So that is my one question: Was the intent in 1992 that any 
further targets that were established would be part of an 
approval process with Senate consent?
    And then I am going to ask you the next question. You can 
answer once.
    On the sole executive agreement issue, it is stated that 
those have been used to justify the authority for COP 21. Would 
you say that those are typically used in narrow and limited 
circumstances? And do you believe that COP 21 would be 
considered a narrow and limited circumstance?
    So I want to dig down on the legality issue.
    Mr. Ku. OK. Thank you, Senator.
    On the first issue, I think that the U.N. Framework 
Convention was a framework convention, it was to set up a 
framework for further negotiations and a process, but did not 
in fact and should not be read as authorizing new agreements 
without having to go through the normal process. So it is my 
view that convention does not authorize, it requires any new 
agreement for legally binding emissions to go back to the 
Senate.
    In fact, I think in 1992 the Senate, as part of the process 
for approving the U.N. FCC, actually asked the Bush 
administration whether future protocols to the treaty would 
require Article II, meaning going back to the Senate, and the 
Bush administration said if the new protocol contains legally 
binding emissions, targets, or timetables, then they would send 
that back to the Senate.
    So that is essentially a promise by the executive branch 
that we will come back to the Senate. It is the type of thing 
that should be respected as inter-branch dialog, and I think it 
is one of the reasons why I think an agreement with legally 
binding emissions targets and timetables should be sent back to 
the Senate for its approval.
    On the second question of sole executive agreement just 
quickly, sole executive agreement is typically done in pretty 
narrow circumstances. The format typically is Article II 
treaties or Congress specifically authorizes the President to 
make an executive agreement in a particular area like trade, 
like the TPP or something like that. A sole executive agreement 
is when the President just acts under his own authority, and I 
think that is not so much that it is unusual, but it is narrow 
and relatively narrow.
    I don't think that in this circumstance, I think the 
President could say, well, I agree to every year report on what 
we are doing, and that would be something that he could do as a 
sole executive agreement. I don't think he could commit the 
United States to reduce emissions by a certain amount, by a 
certain year, in a sole executive agreement; I think he would 
either have to get Congress to approve that through new 
legislation or I think the best way to do it is to go back to 
the Senate for approval as a treaty.
    Senator Capito. Thank you.
    Mr. Cass, you mentioned a giant transfer of wealth. 
Obviously, the President is going to go to this negotiation 
with no money and a green climate fund that has been 
appropriated by the Congress. What kind of effect will that 
have, do you think, in terms of future commitments that the 
United States is supposedly making if this Congress won't 
appropriate any money? There is no guaranty that future 
congresses would. At the same time, I am certain the world 
community is counting on the United States to bring the money 
to the table.
    What comments would you have on that?
    Mr. Cass. Well, I think probably everyone, including 
negotiators from other countries, understand that the President 
cannot appropriate money on his own. I think the larger concern 
is that, faced with the choice of Paris collapsing without an 
agreement or saying, yes, I will go find a way to get the 
money, U.S. negotiators will say we will find a way to get the 
money and essentially shift the onus back to Congress and say, 
look, the world has come together on this agreement; you, if 
you do not appropriate the money, will be at fault for the 
agreement failing.
    So to preempt that I think it is actually very important 
that Congress act first and say to the world, let's be clear, 
we will not appropriate that kind of money; don't come back 
with an agreement that requires it because that should not be 
the lynchpin of an agreement that does not even include 
significant emissions reduction.
    Senator Capito. All right, thank you.
    Senator Carper.
    Senator Carper. Thanks so much.
    Again, our thanks to all of you for being with us. Some of 
you this is the first time we have met you; others we have 
known for some time. New or old, we are happy to have this 
chance to spend this time with you.
    Just a word on leadership, if I can. I think that 
leadership is probably the most important ingredient of any 
organization I have ever been part of or led; I don't care if 
it is the Navy, military, business, this place, sports team, 
college, hospital, school. Leadership is the most important 
thing. And leadership is demonstrated in a variety of ways. I 
always said that great leaders are those who look at a problem 
and say what is the right thing to do; not the easy thing, not 
the expedient thing, but what is the right thing to do. And the 
right thing to do is to provide leadership in this instance.
    Leadership is staying out of step when everyone else is 
marching to the wrong tune, including some with whom I serve. 
We lead by our example. It is not by do as I say, but do as I 
do. That is why it is important for us to actually set an 
example and encourage others to lead. I find in my life and my 
experience a lot of time they do.
    Leaders should be aspirational. It has been said that 
leaders are purveyors of hope.
    As I listen to this testimony today, I heard some testimony 
that was doom and gloom, and, frankly, I heard some testimony 
that was aspirational and uplifting; and I know you can 
probably figure out where those came from. Leaders just don't 
give up. Leaders don't give up. You know you are right, you are 
sure you right, we don't give up.
    I would just say you don't need a tutorial on leadership, 
but it is the most important thing here and every place I have 
ever worked or served.
    I want to talk a little bit about acid rain. We are in a 
party of the Country where we deal with sea level rise on the 
East coast, Mid-Atlantic, Northeast as well. Twenty, thirty 
years ago we had a big problem with acid rain. You may remember 
that. And a lot of folks said, well, we can never afford. 
President Herbert Walker Bush said we have this idea, we call 
it cap and trade, and we are going to try to reduce sulfur 
dioxide emissions and the effect of acid rain. People said, oh, 
you can't do that; it will kill the economy.
    Well, guess what? As I recall, as I recall, what we finally 
did, putting in place, implementing the plan that he proposed, 
we achieved our goals in half the time and one-third of the 
cost. Imagine that. And we spurred a lot of innovation; 
innovation that turns to economic products and technologies 
that we can export all over the world.
    I remember sitting here in this room about 10 years ago. 
George Voinovich and I were leading the Clean Air subcommittee 
of EPW and we had testimony on mercury reductions and how much 
mercury we could release from coal-fired plants. My 
recollection is we had somebody say, oh, we could never do 
that, it would cripple the economy, that is just impossible.
    We had one witness, Lisa, sitting right where you are 
sitting today, and the guy who was representing all the 
association technology companies and he said, we can do this. 
We were talking about 80 percent reductions in mercury 
emissions. He said, we can do this. In fact, he said, I think 
we can maybe even do better than that in the timeframe that you 
are talking about.
    Well, guess what? We did. And we didn't do 80 percent 
reductions; we did 90 percent. And we created technology 
innovation that we have been able to sell all over the world. 
And if we are smart about it, all these coal plants you all are 
talking about in China, they can actually have the kind of 
technology that we have put in or prepared to put into new 
coal-fired plants here.
    Lisa, I am going to ask you to just take a minute and just 
give us a comment on one of the things we have heard from our 
first three witnesses that you think needs to be rebutted or at 
least addressed. Would you do that, please?
    Ms. Jacobson. Thank you. I think on the INDC topic.
    Senator Carper. INDC stands for?
    Ms. Jacobson. Yes. So they are the commitments that other 
nations have brought forward. The Council, in our experience in 
discussing with other countries and what is expected in COP 21, 
we did not expect that those would be legally binding 
commitments. There may be other aspects of the treaty that have 
more legal force. As we all know, that topic is one that has 
not yet been resolved.
    But just the fact that that scope and scale of countries 
have come forward with greenhouse gas mitigation and adaptation 
plans in any shape or form is a major breakthrough, and, as 
companies, we see that as an important market signal and then 
we can respond to that. We can look at the experience in the 
U.S., where States, local governments, or the Federal 
Government have made policy frameworks that signal low carbon 
investment, and then we come in, roll up our sleeves, and say 
how can we get that done, very similar to the comments that you 
made about control technologies for mercury.
    We have innovation and we have investment capital to bring 
to the table, and when we see 160 countries say I want to 
consider my energy policies and I want to consider low carbon 
solutions, we will step up and work with them through public-
private partnership and through investment to help them reach 
their goals. So when we look at the INDCs, we see business 
opportunities for U.S. companies and we see jobs in the United 
States.
    Senator Carper. Thank you so much.
    Thank you, Madam Chair.
    Senator Capito. Thank you.
    Senator Rounds.
    Senator Rounds. Thank you, Madam Chair.
    I want to just give everybody an opportunity to comment on 
one particular part of this, and the part that I am concerned 
with is any time we have a leader who steps forward and says we 
want to make some changes, in the United States, this is a case 
of where you have to bring Congress with you; and it seems as 
though everything works out better if you have a bipartisan 
effort to get something done.
    What I am concerned about is that there has been a little 
bit of a discrepancy in terms of the discussion here today 
among our panelists with regard to what occurred in 1992 with 
the UNFCCC or the United Nations Framework Convention on 
Climate Change. I am just curious, for each of you, if you 
could give us your brief thought process. Did that particular 
Framework, as agreed to by the Senate by a voice vote, did that 
provide the opportunity for the President today to step in and 
to have a binding agreement for this Country to reduce levels 
with regard to climate change issues?
    I know that there was specific language placed within the 
provisions of the ratification agreement as put forth by the 
Senate Foreign Relations Committee when it was presented to the 
Senate in 1992, but I would like your thoughts to see if we 
would all agree or disagree, or where the discrepancy might be 
with regard to how that would be interpreted today.
    If we could, I will just go down the line and simply ask 
each one of the members here if you would give me your 
thoughts, if you would care to.
    Mr. Ku. As I said, I think that it is pretty clear from the 
approval of the Senate they were worried about giving, when 
they approved it, that that would be an implicit authorization 
for a new agreement which didn't come back to them. So I would 
read it as requiring a promise by the President to come back if 
I have legally binding emissions reduction targets and 
timetables. And I don't know that there are that many people 
who disagree with that. That was sort of an understanding when 
the Senate approved the UNFCC.
    Mr. Cass. I would agree with Professor Ku that certainly 
anything legally binding with respect to emissions targets 
would need to be approved by Congress or the Senate.
    Mr. Eule. I would agree with that as well, and I would just 
remind everybody that in the Kyoto Protocol, which had legally 
binding targets and timetables, the expectation was that that 
would have to go to the Senate for its advice and consent.
    Mr. Waskow. On the original UNFCCC, it obligates all 
countries to take steps to reduce emissions in order to avoid 
dangerous climate change. In the present instant, I think what 
is important to keep in mind is the Administration's position, 
which they have stated as being that they are seeking an 
agreement that is consistent with existing U.S. law, and also 
one that does not have legally binding provisions having to do 
with mitigation obligations on emission reductions. So I think 
that sets in a critical way the framework for thinking about 
what is happening in the current negotiations, along with the 
fact that in fact all countries essentially are stepping up to 
put their mitigation plans, as well as adaptation plans, on the 
table.
    Senator Rounds. But does that mean that for legally binding 
changes or limitations that you believe they would also have to 
come back to the Senate for that ratification?
    Mr. Waskow. I wouldn't presume to know exactly what the 
legal outcome of the agreement would be and what the 
implications of that would be for Senate ratification. I think, 
however, the Administration has made clear how it is looking at 
the mitigation obligations or the mitigation provisions in 
particular, and that those should be non-legally binding. And 
in that instance, assuming that the agreement is consistent 
with existing U.S. law, and I think Professor Ku would agree 
with this, the law would suggest that the Administration, the 
President can enter into an agreement under those 
circumstances.
    Senator Rounds. Ms. Jacobson.
    Ms. Jacobson. Thank you. I mean, I think the Framework 
Convention on Climate Change was a catalyst for significant 
policies at the local, State, and national level that aimed to 
address climate change, greenhouse gas emissions, and 
adaptation. I think it will depends what comes out of this 
agreement in Paris to how Congress will engage, but I think, no 
matter what, congressional engagement is a positive and 
constructive part of our Country, thinking about how it is 
going to manage energy and climate change concerns.
    So our organization urges and is, first of all, very 
pleased that there will be delegations, and have been every 
single year, from Congress, both members, Senators, and staff 
that come to the negotiations; and also we look forward to 
engagement with Congress in the present time, as well as after 
Paris, to assess what has been agreed to and to provide any 
oversight functions it feels is necessary. So we welcome that.
    Senator Rounds. Thank you.
    One more real quick question. This is for Mr. Eule. Mr. 
Eule, Secretary of State John Kerry recently told the Financial 
Times that the Paris agreement is definitively not going to be 
a treaty. Responding to criticism from European counterparts, 
the State Department quickly backtracked the statement by 
saying, our position has not changed. The U.S. is pressing for 
an agreement that contains provisions both legally binding and 
non-legally binding, while the exact legal form of a COP 21 
agreement remains unclear.
    Do you believe that there is a role for the Senate in 
assessing these policies that stand to have broad-reaching 
economic and employment consequences?
    Mr. Eule. Absolutely, Senator. As I said in my testimony, I 
think whether the treaty is legally binding or not legally 
binding shouldn't make a difference. A treaty that really 
extends into every nook and cranny of the U.S. economy I think 
should go to the Senate and to the House for approval.
    Senator Rounds. That would follow, then, with what we would 
find under the State Department Circular 175, in which they lay 
out eight items identifying what is the differences between a 
binding and non-binding item required for treaty, or that they 
would expect to be under a treaty provision?
    Mr. Eule. Yes, Senator, I would agree with that.
    Senator Rounds. Thank you.
    Thank you, Madam Chair.
    Senator Capito. Thank you.
    Senator Merkley.
    Senator Merkley. Thank you very much, Madam Chair.
    I appreciate the testimony and I appreciate this discussion 
because the impacts of global warming are extensive and 
current, certainly on the ground in Oregon, where we see 
growing damage from pine beetles because the winters are 
warmer. We see extensive increases in forest fires. The season 
has gotten longer, the fires have gotten more extensive, 
destroying natural resources. We have had a huge loss of snow 
pack in the Cascades, affecting not only our streams, making 
them warmer and smaller, but affecting our agriculture, with an 
extensive three worst-ever droughts in a period of 15 years in 
the Klamath Basin. Even the oyster industry is having troubles 
because the ocean is 30 percent more acidic than it was before 
the industrial revolution.
    There is certainly no great mystery over the legal status 
of this. An executive agreement under authority of a ratified 
treaty and under authority of current U.S. domestic law, with 
non-binding emission targets and binding responsibilities to 
report on progress. We can play with this extensively and try 
to divert attention from the core issue, but let's not. Let's 
address the core issue. Let's look at the fact that there are 
enormous economic consequences, that global warming is a huge 
assault on our rural resources, huge devastation to our 
agriculture, to our fishing, and to our farming. So this is 
something that the U.S. must exert leadership on, and bringing 
together the nations of the world to be able to put forward 
their vision of how we can collectively take this on is an 
important act of the collective international community.
    It has been said that we are the first generation to be 
feeling the impacts of global warming and the last generation 
that can do something about it because of the fact that it is 
so much harder as the momentum builds in the warming feedback 
loops. So we have a moral obligation to act. And certainly many 
of the major corporations that make up the U.S. Chamber of 
Commerce are coming forward on their own to say that this is an 
important objective, that they are deeply committed to making 
change; and I hope their voice will start to be heard in key 
forums around the world and take us forward.
    I just want to note that in the conversation it is often 
said, well, we really need to have developing nations 
participate. Well, now we have developing nations participate. 
It has been asserted, I believe, Mr. Ku or Mr. Cass, in your 
testimony, they were saying, well, China is not doing very 
much. China has pledged in the next 15 years to deploy as much 
renewable energy and electricity as all the electricity 
generated in the United States by coal, by gas, and by 
renewable efforts. That is a massive, massive deployment in a 
very short, in a decade and a half, and represents an 
extraordinary change in their disposition and their sense of 
responsibility.
    I would also like to note that the Senate Appropriations 
Committee did act. They acted on an amendment, an amendment 
that was put forward and had bipartisan support to say the 
United States should provide funds to the Green Climate Fund; 
that this is certainly part of the equation, because developing 
nations around the world could say we are not going to act 
until the per person footprint of the United States is equal to 
our footprint, which is much, much smaller. They could say 
that. But if they say that, our planet is doomed.
    So they have courageously come forward and said we 
understand that this is something that has to have every nation 
involved but, you know what, we haven't produced much carbon 
and the carbon that the developed nations have produced is 
having a big impact on us, so can you help us out a little bit 
to address these issues. And that certainly is a reasonable 
proposition to put forward. So I commend the U.S. Senate 
Appropriations Committee for having voted in full committee to 
provide some assistance in that regard.
    I want to just invite David to ask to address whether we 
can wait another 30 or 40 or 50 years to take action and expect 
not to have catastrophic consequences.
    Mr. Waskow. Thank you for the question. Not acting 
increases the cost of action. The longer that we delay in 
acting will increase the cost of action because we will have 
infrastructure lock-in and other dynamics that will make it 
increasingly difficult to in fact shift to low carbon 
economies.
    We do have the opportunity and I think we in fact are on 
the trajectory, as Lisa and others have said, of moving very 
rapidly toward that low carbon economy. The price of solar 
panels, for example, has fallen 75 percent in the last 5 years.
    Senator Merkley. And we can create hundreds of thousands of 
jobs in doing so?
    Mr. Waskow. And we are in fact creating. There are 100,000 
jobs in Texas alone related.
    Senator Merkley. Thank you. My time has expired, but I do 
want to welcome Sam Adams, former mayor of Portland, who works 
with the World Resources Institute on Climate Change and did a 
tremendous amount as mayor of Portland to take the city forward 
in this regard.
    Senator Capito. Thank you.
    Senator Sessions. Thank you.
    This is an invaluable hearing. I think it is very clear the 
President does not have the power to unilaterally bind the 
United States in these kind of agreements.
    There is a bipartisan agreement and support, and we have 
made a lot of progress together on things like reducing 
pollution, which often means improving coal use. We have made 
progress on automobile mileage. We have had strict requirements 
on that and so far the automobile industry has done that. We 
haven't made the progress we should have made on nuclear power, 
in my opinion. That has the greatest potential over time. So we 
have electric cars and other ideas that could become reality. 
Solar panels are getting more competitive and maybe can play a 
larger role in time to come.
    But the American people are not sold on this, and neither 
am I. The idea that we have to spend billions, even trillions 
of dollars on CO2 as a result of the concern of global warming 
is what is not being sold effectively and is not being accepted 
by the American people. Maybe I will show a couple of charts in 
just a second here.
    This is polling data, the Gallup Poll earlier in the year, 
in March, that shows 18 issues, and the last one on the minds 
of the American people as an important issue was climate 
change. And I think the data shows that we are not seeing the 
kind of increases in temperatures that were projected. If you 
take the objective satellite data compared to the red line 
here, which is the average of 32 computer models, over 100 runs 
of those models shows that the temperature would increase at a 
rather dramatic rate. I thought a number of years ago we may 
actually be seeing that, but the blue dots and the light green 
dots represent the climate temperatures actually occurring 
according to satellite and balloon data.
    So, in essence, I'm just saying that the projections of 
disaster aren't coming true, and Dr. Pilke testified here from 
the University of Colorado or Colorado State in which he said 
that we are not seeing more hurricanes, not seeing more 
tornadoes, we are not seeing more droughts, and we are not 
seeing more floods. So that is part of the background of where 
we are.
    All right, Dr. Eule, the Green Climate Fund proposal and 
Copenhagen commitment is a commitment of developing countries 
to provide $100 billion a year by 2020 to address the needs of 
developing countries. Do you know what the United States' share 
of that likely would be? Has that been discussed?
    Mr. Eule. I don't think it has been discussed. The 
Administration has proposed a $3 billion amount that would go 
to the Green Climate Fund, but that is pre-2020.
    Senator Sessions. Well, we pay about 25 percent of the U.N.
    Mr. Eule. Right. If we are about 25 percent of the United 
Nations, actually, when you take a look at the countries that 
are responsible for providing funds to the Green Climate Fund, 
it is the countries that are in what is known as Annex 2. It is 
a small subset of developed countries. And the U.S. accounts 
for about 45 percent of the emissions from those countries. So, 
in reality, we could be on the hook for about $45 billion of 
that.
    Senator Sessions. Forty-five?
    Mr. Eule. Yes.
    Senator Sessions. And that would be annually?
    Mr. Eule. That would be annually. Now, you have to remember 
$100 billion was just a starting point. You know, a group of 
developing countries have said that should rise up to $600 
billion. The Chinese have said it should be 1 percent of the 
GDP of developed countries, which the U.S. share of that would 
mean about $170 billion.
    Senator Sessions. We are pushing on 18 trillion GDP, so 1 
percent of that is $180 billion a year?
    Mr. Eule. That is right. It is a large amount of money even 
by Washington standards.
    Senator Sessions. I would agree. An African group is 
insisting on ramping up the funding to $600 billion a year by 
2030?
    Mr. Eule. That is right.
    Senator Sessions. Well, my time is about up, so I think we 
made the concerns pretty clear here. Yes, let's do the things 
that make sense; let's look for the efficiencies and anti-
pollutants, which I don't consider CO2 to be a pollutant. 
Plants need to grow.
    And I think if we work on that, Madam Chair, in a 
bipartisan way, we will also get reduction in CO2 and we will 
also get reduction in pollutants and we will benefit. But to 
impose these kinds of costs on the economy, when I think there 
is no realistic expectation the other countries that sign it 
will meet their requirements is not wise.
    Senator Capito. Senator Markey.
    Senator Markey. Thank you, Madam Chair, very much.
    The world is going to gather in Paris in 2 weeks, and the 
central objective is to deal with the dangerous human 
interference with the climate system, and countries from around 
the world are coming in order to make their commitments. One 
hundred sixty countries that actually are responsible for 90 
percent of global carbon pollution have already made climate 
pledges in advance of the Paris talks, and we are positioned to 
have a very successful outcome from this huge international 
meeting. I believe that the United States can meet our goals.
    President Obama has made them at different times before 
this huge summit. That is because our fuel economy standard to 
go to 54.5 miles per gallon. That is the largest single 
reduction in greenhouse gases in history of any country. That 
is still on the books. The President's Clean Power Plan will 
dramatically reduce emissions from that sector as well. We have 
energy efficiency standards and we have massive deployment of 
wind and solar all across our Country that is unleashing 
business opportunity.
    So I guess I go to you first, Mr. Waskow. Do you agree that 
the Paris agreement includes meaningful emissions reduction 
pledges from all the countries, including developing countries, 
in your opinion?
    Mr. Waskow. Thank you. As I mentioned, there are more than 
160 countries, 119 of them developing countries that have put 
forward their plans. We are seeing significant actions in many 
of them. I would just note, for example, in the case of India, 
that their domestic plans are to increase renewable energy to 
175 gigawatts total by 2022, and 100 gigawatts of that would be 
in solar energy; and that is more than half the current global 
solar installed capacity. That would then ramp up.
    Senator Markey. That is 170,000 megawatts of renewable 
electricity.
    Mr. Waskow. That is right.
    Senator Markey. So that is incredible. And China is making 
a comparable kind of commitment, even larger in terms of its 
deployment, by the year 2030.
    Do you anticipate that an agreement reached in Paris will 
include procedures for reporting, monitoring, and verifying 
those pledges?
    Mr. Waskow. The underlying U.N. Framework Convention in 
fact has provisions for countries to provide information about 
their emissions to report on their inventories. This agreement 
will build on that. We already had progress forward in the 
Copenhagen and Cancun agreements about increasing the degree of 
transparency. This agreement, I think, will increase that to an 
even greater degree and have convergence between developed and 
developing countries in terms of the requirements that they 
face in terms of transparency.
    Senator Markey. Thank you. Has America's leadership been 
the key to bringing all the other countries to the table? Has 
the fact that we have made this commitment to reduce by 26 to 
28 percent by 2025 been the forcing mechanism that says to 
China and to India and to other countries you too must do 
something?
    Mr. Waskow. I think our actions have been noted around the 
world. I think that when one goes to the negotiations, one has 
a sense that countries see what we are doing. And I think one 
of the underpinnings, in fact, of this agreement is the work 
that the United States has done with China in particular to 
move forward.
    Senator Markey. I think you are right. Honestly, you can't 
preach temperance from a bar stool, so we had to put up our 
commitments, and that is what the problem was back in Kyoto; we 
weren't putting up what we were going to be doing. So here we 
have that and we have had a response from countries all around 
the world.
    In the business community I think they are looking forward 
to this, are they not, Ms. Jacobson, so that there can be a 
signal that is sent to the business community that they can 
rely upon, that there is going to be an investment atmosphere 
that is going to unleash hundreds of billions, trillions of 
dollars into this renewable energy sector?
    Ms. Jacobson. Very much. And energy efficiency and other 
clean generation options. I mean, what the business community 
needs is a clear, sustained market signal to drive investment. 
Right now we are seeing investment sitting on the sidelines 
because there is not enough clarity. The United States has made 
tremendous progress in providing clarity over the last several 
years in terms of its domestic policy agenda in the energy 
sector. We need to see that in more countries, and we believe 
that the Paris discussions and the outputs from the conference 
are going to create a stronger investment signal in other 
countries outside of ours.
    Senator Markey. What would it mean if we extended the wind 
and solar tax breaks for 15 years in this Country, in terms of 
the climate for investment?
    Ms. Jacobson. We have seen, just looking at the ITC and the 
production tax credit experienced just in the last five or 6 
years, you can see when we had a sustained investment policy 
for the ITC we saw investment and deployment increase 
dramatically. And when we didn't have that clarity in other tax 
provisions for clean energy, things dropped off. So it is a 
very clear spotlight on what the power of policy certainty can 
provide to the investment of this community.
    Senator Markey. Thank you. We are going to have 300,000 
jobs in wind and solar by the end of next year; 65,000 coal 
miners. So you can see how this is a growth trajectory that if 
we kept these tax incentives on the books, the clean power plan 
and the fuel economy standards, we would revolutionize our own 
Country, but give the leadership to the rest of the world; and 
be able to export these technologies, by the way, around the 
rest of the world.
    I thank you for all of your help here today.
    Ms. Jacobson. Thank you.
    Senator Markey. Thank you, Madam Chair.
    Senator Capito. Thank you.
    It is my understanding that we have had a vote that has 
been called, so what I am going to do is step away from the 
chair while Senator Boozman questions; make my vote really 
quickly and then get back so we can keep continuing with the 
hearing. Thank you.
    Senator Boozman.
    [Presiding.] Mr. Eule, as you know, it was revealed earlier 
this month that China's coal consumption is 17 percent higher 
than was previously reported. This confirms what many of us 
have been saying: we can't trust China to keep track of carbon 
emissions and play by the rules. I have said many times that 
one of my major concerns is when we impose expensive carbon 
mandates here and force the price of electricity to necessarily 
skyrocket. It just forces our manufacturers to close, and their 
competitors in China will grow and emit even more into our 
atmosphere.
    Mr. Eule, is China the only country that has problems 
keeping up with its own CO2 and GHD emissions?
    Mr. Eule. No, it is not. And when you take a look at the 
error that the Chinese made, we are not talking about a 
rounding error here; this is a huge error, equivalent to about 
the GHD emissions from Germany. So what is going on in China is 
going on in a lot of other countries in the world that just 
don't have a handle on how much greenhouse gas emissions they 
are actually emitting.
    Senator Boozman. If China can't accurately account for its 
emissions, should we expect them to actually deliver on setting 
up a complex and sophisticated national emissions trading 
system?
    Mr. Eule. Quite frankly, I don't see how they can do that. 
I mean, part of an emission trading system is the idea of 
trust; that when you purchase a ton of CO2 allowance, that 
actually represents a ton of CO2 emissions. And right now we 
don't have that confidence, and I am not so sure in the next 
year or so, when Chinese expect to roll out their emission 
trading, I am not so sure that confidence can be instilled in 
such a short period of time.
    Senator Boozman. Thank you.
    Mr. Cass, you highlighted in your testimony that the COP 21 
negotiations will focus little on greenhouse gas emissions and 
almost entirely on climate finance, specifically on motivating 
developed countries like the U.S. to offer more than $100 
billion per year starting in 2020 through the green climate 
slush fund. Of course, thankfully, Congress is not going to 
provide that money. But for those countries that might put a 
few dollars into this fund, is there any indication of how 
these funds would be used?
    Mr. Cass. Thank you, Senator. I think one of the open 
questions right now is exactly that, which is what does this 
funding look like. The Green Climate Fund actually just 
announced its first set of grants, and it was sort of a 
hodgepodge of small dollar grants to build resilient 
infrastructure, potentially some investments in the direction 
of clean energy.
    But there frankly, at this point, is no clear guidance on 
how the money would be spent, and I think, most importantly, we 
know from our experience with foreign development aid that 
sending large amounts of money to developing countries even to, 
say, build a school is enormously challenging and rarely 
produces the desired result. Sending that money to build a 
revolutionary electricity grid where none has existed I think 
is doubtful to work very well.
    Senator Boozman. No, that was my next question. We are 
really talking about countries that really have trouble with 
governance; lots of corruption, money not putting to good use. 
So, again, I guess your testimony is that that would be very, 
very difficult to manage.
    Mr. Cass. I think it is, and I think we take for granted, 
as we develop green infrastructure and renewable energy in the 
United States, that we have all the existing infrastructure to 
build off of and that we are adding a few percentage points to 
an enormous baseload of reliable energy. And now we are trying 
to do that in a developing world that has no such baseline, and 
this is exactly why the developing world doesn't want to go in 
that direction, because it is not the right way to develop.
    Senator Boozman. What level of oversight would be assigned 
to the global fund? Is there any oversight in place?
    Mr. Cass. There is an elaborate U.N. style structure of 
oversight over the Clean Climate Fund, with boards and 
committees and guidelines. In practice, how the money comes and 
goes I think will likely look more like what we have seen from 
other U.N. efforts than what we are used to domestically.
    Senator Boozman. Right. Thank you.
    Senator Booker.
    Senator Booker. Thank you very much, Mr. Chairman.
    So there clearly is a crisis, and I am glad I didn't hear 
anybody sort of denying that we don't have a climate problem. 
And the data and the facts speak for themselves. Just over the 
past week, scientists reported that global carbon dioxide 
concentrations have exceeded, perhaps permanently, the 400 
parts per million threshold and carbon dioxide levels are now 
substantially higher than at any point in the last 800,000 
years. Global temperatures have now exceeded about 1 degree 
Celsius above the pre-industrial age, with 2014 being the 
warmest year on record. These are facts. 2015 actually is on 
pace to be even warmer than 2014.
    And this is something that is not just heralded by the 
scientists around the globe, but also important global 
organizations. Earlier this month, The World Bank announced 
that due to currently projected sea level rise and an uptick in 
extreme weather, climate change could force an additional 100 
million people on the planet Earth into poverty by 2030.
    So in the face of global crises, it seems that I hear in 
Washington over and over again that America must lead, that our 
leadership is important. Indeed, as we see with the war on 
terror, people calling again and again for American leadership. 
Well, clearly this global crisis is another case where we must 
lead. America has led throughout the decades in generations 
past, from the space race, which has yielded billions and 
billions of dollars in economic benefit to the United States, 
to even important global issues like mapping the human genome.
    So in the face of this need for American leadership, in the 
face of these facts about a global crisis, it is important to 
me that there are actually things that Paris can do and will 
do, if not the least of which is increasing communication, 
transparency, and greater levels of accountability for nations, 
as well as corporations. But critical to me, I mentioned the 
space race, is this understanding that leadership has its 
benefits and this crisis has its cost. The U.S. historically 
providing leadership to help solve global crises is something I 
am proud of, and this is an occasion where we must rise again. 
By exercising leadership, the United States economy can 
benefit, and it can benefit in astonishing ways, with trillions 
of dollars of new investments, increased jobs, and, most 
importantly, as I am seeing on the coast of New Jersey, we can 
avoid the social costs.
    A recent NYU report finds that a global agreement to limit 
temperature increases to 2 degrees Celsius will provide $10 
trillion in direct benefits to the United States. I know the 
costs both to the local communities in New Jersey, from our 
fisheries to the storms and the weather changes, but the 
opportunity, the upside for this leadership is profound.
    So I would like to ask questions first to David Waskow. Mr. 
Waskow, in your opening statement you mentioned some of the 
potential economic benefits. This is something that is often 
not talked about. People keep talking about the costs, the 
costs, the costs, but the upside is pretty extraordinary. So if 
you could elaborate for me about what our Country, what the 
United States of America could see when it comes to economic 
benefits, job benefits from reducing carbon emissions.
    Mr. Waskow. Sure. The benefits are quite extraordinary, as 
I mentioned. The EPA has estimated that the benefits of the 
Clean Power Plan themselves, from health benefits and others, 
are $32 billion to $54 billion by 2030. That, in itself, is 
substantial and noteworthy.
    In addition to that, key actions that we can take, such as 
in energy efficiency, provide economic benefits, the evidence 
is that for every dollar invested in energy efficiency, you get 
at least two back. And the appliance efficiency measures that 
the Administration has put in place since 2009 alone would 
bring consumers $450 billion in benefits by 2030.
    Senator Booker. No, I appreciate that. And as somebody who 
had to run a city, I saw a triple bottom line when it came to 
dealing with energy efficiency and trying to deal with global 
issues. We not only are able to reduce our expenditures by 
doing environmental retrofits where we were able to lower our 
carbon footprint, but we created jobs for our community and 
began to deal with the crisis in urban places like epidemic 
asthma rates.
    Ms. Jacobson, a similar question for you is can you 
describe some of the potential economic opportunities for the 
United States that would result from strong international 
agreement in Paris? And, please, you have 30 seconds. There is 
a ferocious chairman here and I want to stay on his good side.
    Ms. Jacobson. I think I will just go back to my point on 
energy productivity and looking at what productivity gains our 
economy has achieved as we have also reduced our greenhouse gas 
emissions. It shows that you can reduce emissions, you can cut 
energy waste, you can create jobs, and you can improve the 
competitiveness of the U.S. economy at the same time. So these 
things make economic sense.
    Senator Booker. Thank you very much.
    Mr. Chairman, I would like to note that I finished before 
my time expired.
    Senator Boozman. Senator Wicker.
    Senator Wicker. You surely did; three, two, one. Let me 
just make a statement, because we do have a vote and many other 
things to get to, so I will not have a chance to do a question.
    I want to put in the record at this point, Mr. Chairman, a 
peer reviewed article by Dr. Bjorn Lomborg of Copenhagen 
Consensus Center, entitled, ``Impact of Current Climate 
Proposals.'' Could I put that in the record at this point?
    Senator Boozman. Without objection.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    Senator Wicker. I also would like to put into the record a 
press release issued by the Copenhagen Consensus with regard to 
that peer reviewed study.
    Senator Boozman. Again, without objection.
    [The referenced information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
  
    Senator Wicker. Let me just say this. Mr. Lomborg and I 
have not always seen eye-to-eye on the causes of climate 
change, but he has, I think, released a very important peer 
reviewed study. And, of course, I look on the Internet and I 
see the first thing that happens when you challenge the status 
quo is that there is a chorus of people saying that the data is 
wrong and faulty and should be disregarded.
    But here is what Dr. Lomborg tells us about the Paris 
promises. He basically says this: if Paris accomplishes 
everything they want to, and if you use their own projections, 
if we measure the impact of every nation fulling every promise 
by the year 2030, the total temperature reduction will be 0.048 
degrees Celsius. In other words, by the end of this century, if 
everything they say is correct, we will have accomplished a 
change in degree Celsius of less than five-hundredths of a 
degree Celsius.
    My friend from New Jersey may or may not be correct about 
the problem, but the question is we spend all this money and 
divert it from all of these other areas. What are we going to 
get for it in addressing this problem? And this peer reviewed 
study says you are going to get less than five hundredths of a 
degree by the end of the century.
    The United Kingdom is diverting $8.9 billion from its 
overseas budget, going to turn it over to climate change. We 
are going to divert almost $9 billion and get five-tenths of a 
degree Celsius?
    I think the people of the world who answer public opinion 
polls are correct. When asked where action-related climate 
change ranks out of 16 categories, they rank it dead last. I 
think the people that are most disadvantaged in this world 
would rather have us use money to improve education, to 
increase electricity availability, to fight malaria.
    Malnourishment claims at least 1.4 million children's lives 
per year. Yet we are taking money away from programs that do 
that. We are taking money that could be used for malnourishment 
and putting it on something that is going to five us less than 
five hundredths of a degree.
    1.2 billion people live in extreme poverty. Think of what 
the United Nations could do with the money that we are going to 
put, if it is $100 billion or whatever. Think of what we could 
do to help people in poverty, to help children who are dying, 
dying from malnutrition. Two point six billion human beings on 
this planet lack clean drinking water and sanitation. We could 
prevent 300,000 deaths a year if we took this money and put it 
on malaria.
    So I just say I hope this Congress, I hope this Senate will 
act with caution. I hope the representatives of the American 
people act with caution when they go to Paris. And I hope 
whatever is done, I hope we make it clear, and the word should 
go out from this hearing and from this capital that whatever is 
agreed to by the people representing the United States of 
America in Paris should come back to this Congress for debate, 
for consultation, and for approval or disapproval by the 
Congress.
    Thank you, Madam Chair.
    Senator Capito.
    [Presiding.] Thank you.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Madam Chairwoman.
    Ms. Jacobson, in your written testimony you wrote that the 
U.S. business community is increasingly considering the climate 
change in its energy corporate strategies and that companies 
are pledging to reduce greenhouse gas emissions and are 
implementing other climate change initiatives. Can you discuss 
with the committee some examples of how companies are embracing 
the move to lower our carbon emissions and promote greater 
sustainability? And have they used efforts to combat climate 
change as an opportunity to innovate and grow?
    Ms. Jacobson. Thank you for the opportunity to speak to 
this. Several Business Council for Sustainable Energy members 
made recent pledges this fall related to greenhouse gas 
mitigation and other compatible, sustainable energy 
initiatives. These include Calpine, ENER-G Rudox, Ingersoll 
Rand, Johnson Controls, Kingspan Insulated Panels, PG&E, 
Qualcomm, and Schneider Electric. This really shows them plus 
their peers. In the recent announcements, as was mentioned by 
David, there were over 80 companies that came together, 
representing, I believe, $3 trillion investment, and they 
provide hundreds of thousands of jobs in this Country and offer 
their technologies, products, and services in a competitive and 
effective way globally.
    They see this as a mainstream business issue, and the range 
of tools vary, but they may be things like energy management 
practices, setting targets for reducing their energy use, 
working through their supply chains. Some even put carbon 
pricing into their investment decisions. And they are doing 
this because they get economic benefit from doing so.
    The last decade, through tools like the Carbon Disclosure 
Project and other initiatives, track how businesses have really 
evolved in the way they have responded to the call from their 
customers and from shareholders to consider sustainability 
initiatives and to reduce greenhouse gas emissions. We also now 
are seeing companies take it to the next level and look at what 
science and policymakers are doing in terms of their own 
trajectories for greenhouse gas emissions and matching them in 
their corporate strategies.
    So it is a mainstream issue and companies are responding in 
different ways, but I think the essential piece is that 
companies are responding.
    Senator Gillibrand. Can you please describe the importance 
of reaching an international agreement in Paris to the business 
community that you work with? And what effect do you think the 
global commitment to reduce greenhouse gases will have on the 
ability of U.S. companies that have already embraced 
sustainability to compete internationally?
    Ms. Jacobson. Well, I think the second question first. The 
U.S. has a path forward. It has it at the State level, it has 
it at the local policy level, and we have it at the Federal 
level through the investments we are making in energy research, 
development, and deployment through things like the Clean Power 
Plan. We already have a roadmap. Other countries where we 
compete for customers and to invest need to be on a similar 
roadmap.
    And what the International Climate Change Agreement does is 
it brings to light, it provides transparency on not only what 
we do, but what other governments are doing. So that sends a 
very strong signal to investors of where to place their 
capital. In the energy sector, these are long-lived 
investments; they are decades-long investments. And right now, 
with a lack of clarity in many parts of the world, capital is 
sitting on the sidelines, and that is not good for U.S. firms 
and it is not providing the job creation opportunities that 
U.S. firms would like to provide here at home.
    Senator Gillibrand. Thank you.
    Mr. Waskow, in your testimony you State that the leadership 
shown by the United States has paid substantial dividends 
internationally. Can you please elaborate on how the United 
States leadership has spurred action by other countries, and 
what changes have we seen from the lead-up to the Copenhagen 
meeting in 2010?
    Mr. Waskow. Thank you. The leadership that the United 
States is showing has really had ramifications sort of rippling 
outwards, I think, and the underpinnings of that leadership 
really has been the agreements that the United States has 
entered into or arranged with China. Beginning a year ago, with 
the joint announcement by the two countries, where each put 
forward what its climate plans for the coming decade and, in 
China's case, for the coming decade and a half will be, that 
really laid the ground for an understanding that action was 
going to be international in scope, when the two major 
emitters, the two largest emitters came forward in that way.
    And what we saw coming out of that, I think, was in fact a 
ripple effect that turned into a wave of action 
internationally. And we have now seen all major emitters, as 
part of that 160-plus set of countries with national climate 
plans, come forward with their plans, and we have seen actions, 
as I mentioned the Indian renewables target, for example, that 
have come forward. India has gone even beyond those 2022 
numbers to commit that it would have 40 percent of its energy 
supply from non-fossil sources by 2030. And we have seen this 
happen in any number of countries.
    This is very different from the Copenhagen situation. We 
have seen a doubling of countries that have put forward plans 
that have greenhouse gas emissions targets in them, as opposed 
to general actions, and we are seeing a plethora of renewable 
energy plans as well. We have analyzed the national climate 
plans, the INDCs, to look at renewable energy in particular. 
Just the eight largest emitters have put plans in place for 
more than 8,000 terawatt hours of renewable energy by 2030. 
This is about 20 percent more than what they would have done 
under business as usual.
    So we are seeing something that is really remarkable.
    Senator Gillibrand. Thank you.
    Thank you, Madam Chair.
    Senator Capito. Thank you.
    If we could hold here for just a minute or two. Senator 
Whitehouse is on his way back, would like to participate in 
some questioning. So we will just of at ease, I guess would be 
a way to say it.
    Senator Carper. Madam Chair.
    Senator Capito. Yes.
    Senator Carper. Rather than just sit here and not continue 
our conversation, could I be recognized, please?
    Senator Capito. Yes.
    Senator Carper. A little bit of levy here. Yogi Berra. Who 
mentioned Yogi Berra? Daj` vu all over again. One of my 
favorite Yogi Berra stories is Yogi Berra is in the dugout with 
the other Yankees, and before the game started one of his 
teammates came in and said, did you hear the news, did you hear 
the news, Yogi? He said, a Jew has been elected mayor of 
Dublin. And Yogi thought about it and said, only in America.
    [Laughter.]
    Senator Carper. Another Yogi favorite is Yogi once said, 
when you come to a fork in the road, take it. I think we're at 
the fork in the road, and my hope is that we will take it.
    I learned a few things in preparing for this hearing, Madam 
Chair. One of those is many of these, I will call them, other 
executive agreements not approved by Congress have there been? 
I did have no idea, but it turns out there has been something 
like 18,000 of them since 1789, compared to about 1,000 
treaties that would have been agreed to.
    And I thought, well, are some of those executive agreements 
that have not been approved by Congress? One was the Yalta 
Agreement that ended World War II in 1945. Another was the 
Paris Peace Accords that ended the war in Vietnam in which I 
served. Another was the various adjustments to the Montreal 
Protocol and substances that depleted the ozone labor from 
1987. More recently, the Minamata Convention on Mercury from 
2013, a global agreement to protect human health from mercury 
pollution. All of those were not treaties, they were really 
essentially executive agreements.
    I will yield back my time and thank you.
    Senator Capito. Thank you.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Senator Capito. Sure.
    Senator Whitehouse. May I first ask unanimous consent to 
enter into the record the key vote alert from the Chamber of 
Commerce claiming to represent ``the interests of more than 3 
million businesses of all sizes, sectors, and regions'' 
threatening to ``score the vote'' yesterday to destroy the 
President's Clean Power Plan?
    Senator Capito. Without objection.
    [The referenced information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    Senator Whitehouse. Thank you, Madam Chair.
    May I also ask unanimous consent to enter into the record a 
letter signed by more than 360 companies, including General 
Mills, Nestle USA, Dannon, Staples, Adidas, Gap, Levis, and 
Schneider Electric, which has a good Rhode Island presence, 
always glad to have Schneider Electric involved, that was sent 
to the Nation's Governors expressing strong support for 
implementation of the EPA's carbon pollution standards for 
existing power plants?
    Senator Capito. Without objection.
    [The referenced information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
    Senator Whitehouse. Thank you, Madam Chair.
    May I also ask unanimous consent to enter the White House 
American Business Act on Climate Pledge into the record? This 
is 81 companies with operations in 50 States who employ over 9 
million people, represent more than $3 trillion in annual 
revenue, and with a combined market cap of over $5 trillion? 
The signatories include Alcoa, Bank of America, Best Buy, 
Cargill, Coca Cola, Google, McDonald's, Pepsi, Proctor & 
Gamble, Walmart, and Walt Disney.
    Senator Capito. Without objection.
    [The referenced information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
  
    Senator Whitehouse. Thank you.
    And, finally, let me ask unanimous consent to enter into 
the record a financial sector statement on climate change from 
the financial giants Bank of America, Citi, Goldman Sachs, 
JPMorgan Chase, Morgan Stanley, and Wells Fargo calling for a 
strong global agreement?
    Senator Capito. Without objection.
    [The referenced information follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Senator Whitehouse. I don't have it with me, but I will get 
it before the record of the hearing closes. I would also ask 
unanimous consent that an advertisement in support of climate 
action put into the Financial Times by Unilever, by General 
Mills, by Mars, by Nestle, by Ben & Jerry's, and by Kellogg's 
be added to the record.
    Senator Capito. Without objection.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. And I would like to, with the Chair's 
permission, ask a question for the record of the Chamber of 
Commerce, which is present here in the form of Mr. Eule. The 
question for the record is how does the Chamber's relentless 
opposition to any climate action represent the views of the 
companies on these letters who are chamber members?
    I think that will probably take a little bit of time, so I 
would like to make that a question for the record.
    Let me also add into the record an article----
    Senator Capito. Just let me clarify. That means you are 
wanting a written response from Mr. Eule?
    Senator Whitehouse. Yes. And/or the Chamber, if they want 
to respond through some other personage.
    Senator Capito. All right.
    Senator Whitehouse. I would also like to put into the 
record a recent press story called ``The Koch ATM,'' which 
reports that the U.S. Chamber of Commerce received $2 million 
from Freedom Partners, which is a Koch-backed operation, and 
also reflect for the record here that the Center for Media 
Democracy reports that from 2001 to 2012 The Manhattan 
Institute received over $2.1 million from foundations 
associated with the Koch brothers, including the Charles G. 
Koch Foundation and the Claude R. Lambe Foundation, and the 
Union of Concerned Scientists reports that since 1998 The 
Manhattan Institute received $800,000, $475,000 of which has 
come in since 2007, from ExxonMobil.
    Senator Capito. Without objection.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Senator Whitehouse. Thank you.
    I think the point I am trying to make here is that the so-
called voices of the business community that we are seeing here 
are in fact the voices of the fossil fuel industry, 
specifically ExxonMobil, the coal industry, big oil, the Koch 
brothers; and that the bulk of the broader American corporate 
community is actively supporting taking action on climate, 
setting aside the parts of the American economy that are 
actually involved in the clean energy economy. These are kind 
of just neutral American businesses, as opposed to companies 
like I think it is called Mid-America Power, which is providing 
so much wind power in Iowa right now and other big ventures 
that are investing heavily, creating jobs, developing 
technology, and doing good things for the American economy.
    So I wanted to make sure that the record of this proceeding 
reflected both the position of the broader American corporate 
community and also the funding behind two of the gentlemen who 
are here today.
    Thank you, Madam Chair.
    Senator Capito. Well, I think we have reached the end of 
our hearing. I want to thank all of you for participating. I 
think we have gotten some good discussion.
    Senator Carper. Madam Chair.
    Senator Capito. Yes.
    Senator Carper. You and I are both from West Virginia. I 
was born long before you were, but when I think about this 
issue, I think about the Golden Rule, how do we apply the 
Golden Rule so we are fair to everybody. In my State, we face 
global sea level rise. It is going to do us in, eventually, if 
we don't do something about it.
    My native State, West Virginia, one of the top five coal-
producing States in the Country, some of our neighbors where I 
was born and grew up, my dad worked as a coal miner for a 
little bit out of school. But I have been a longtime supporter 
of clean coal technology, I am sure you have as well, for over 
twenty-some years. We spent about $20 billion on clean coal 
technology, I think, in the last 20 years, and we have a plant 
up and running now in Southwest Texas. It will be up and 
running next year. It will produce about 250 megawatts of 
energy. We have some other plants where work is being done on 
those.
    It has taken a long time, it has taken a lot of money, but 
I am encouraged that we are starting to make some progress. So 
when I apply the Golden Rule to those five coal-producing 
States, West Virginia, Kentucky, Illinois, Pennsylvania, 
Wyoming, and others, I think what is the fair thing to do with 
them, and I think part of the fair thing to do is to continue 
to invest in clean coal technology and look for the innovation. 
All those coal plants that they are going to build in China and 
other places, if they can actually use this technology, we 
could actually develop it, that could be pretty good job 
development for all of us.
    Senator Capito. Well, I would agree, and in the form of 
letting the panel know that Senator Barrasso is on his way, so 
the same courtesies that we extended to Senator Whitehouse we 
will extend to him and wait a little bit longer for him to be 
able to make questions.
    And I do believe innovation, but I do believe that when we 
talk about the human price and the human consequences of what 
is going on in terms of climate change, you have to look about 
what is going on in States like mine right now, and the human 
consequences of the highest unemployment, a 4 percent cut in 
our State budget, the first time we have ever had to cut 
education in many, many years by 1 percent; more people in 
poverty; a sense of gloom and doom and depression that really I 
have not seen in our State, and we have had a lot of highs and 
lows in our State. As you know, we have had experience with 
kind of feeling that our economics can't move forward.
    But it is indescribable where I am living right now, so I 
see the human consequence of moving forward without the 
innovation, without longer timelines, without more common 
sense. So I will just make that a statement.
    I am going to ask a quick question because you brought up 
the sole executive agreements that had been made. I think you 
said how many over the past, 800?
    Senator Carper. Actually, about 18,000.
    Senator Capito. Eighteen thousand.
    Senator Carper. They call them executive agreements.
    Senator Capito. So my question is, Mr. Ku, if this becomes 
a sole executive agreement by this President, who is leaving 
office in a year, for the next president coming in, what kind 
of parameters, does that have any binding measures for the next 
president, and could the next president come in and just 
totally undo what has been done in that sole executive 
agreement?
    Mr. Ku. Thanks, Senator. I think that a sole executive 
agreement is the weakest kind of commitment that the United 
States can make. There are a lot of them, but they are usually 
for very small things or things within the president's inherent 
powers. So the Supreme Court has said that only for things that 
historically Congress has acquiesced in using executive 
agreements would the Court uphold such executive agreements.
    So I think the way to think about this is that if he makes 
the executive agreement under his sole authority, a president 
can withdraw the executive agreement under his sole authority.
    Senator Capito. But that would mean the succeeding 
president.
    Mr. Ku. Yes. So a succeeding president would have the 
authority to withdraw an executive agreement that was made 
under the sole authority of the previous president.
    The only difference, I would just say, is that if the other 
countries feel like the previous president made a binding 
promise, the fact there is a new president doesn't make them 
feel much better about it. So there is a cost to it if the next 
president withdraws. Even though it is legal, the other 
countries obviously become upset and unhappy about it, and that 
is why the Supreme Court, I think, and generally scholars think 
that the use of sole executive agreements has to be carefully 
used only where it is clear the president has the authority and 
there is longstanding precedent for use of a sole executive 
agreement in that circumstance.
    Senator Capito. Well, thank you.
    Senator Barrasso.
    Senator Whitehouse. Madam Chair, before we turn to Senator 
Barrasso's remarks, may I simply associate myself with the 
thoughtful remarks of Senator Carper of a moment ago? I have to 
leave now, but I would like to associate myself with his 
remarks.
    Senator Capito. All right. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    You know, if there was one message that I would like to 
send to the international community ahead of the international 
climate change conference, it is this: without Senate approval, 
there will be no money.
    Secretary Kerry says that a treaty requiring Senate 
approval will not emerge from the international climate talks. 
This is despite the fact that the State Department is pushing 
for parts of the agreement to be legally binding on the United 
States.
    On November 13th, the State Department, our position has 
not changed. The U.S. is pressing for an agreement that 
contains provisions both legally binding and non-legally 
binding.
    Any agreement reached in Paris that contains legally 
binding requirements on the American people must come to the 
Senate for a vote. This isn't only the right thing to do, it is 
also what the Constitution requires.
    As we know, the United Nations Green Climate Fund was 
proposed during the 2009 conference of parties in Copenhagen, 
Denmark. The Fund facilitates a giant wealth transfer of 
taxpayer dollars from the developed nations to developing 
nations to help them adapt to climate change.
    Congress has never authorized funding the Green Climate 
Fund. The United States and other developed nations have 
pledged approximately $10 billion for the initial 
capitalization of the Fund, with the goal of raising $100 
billion annually. Most people think that is a misprint, but it 
is true, $100 billion annually is what they are talking about.
    On November 15th of last year, the Obama administration 
pledged $3 billion in U.S. taxpayer funds over the 4-years 
during the G20 meetings in Australia. The Administration's 
Fiscal Year 2016 budget request asks for $500 million for the 
Fund.
    We cannot support providing taxpayer dollars to this Fund 
is Congress does not get approval of an agreement.
    So I want to make it clear to the Administration, as well 
as to foreign diplomats across the globe who are looking for 
U.S. dollars, which is the linchpin of this conference, without 
Senate approval there will be no money, period.
    I and many of my colleagues will be sending the President a 
letter stating that very soon. We have circulated a copy of the 
letter.
    Now for the questions.
    Mr. Cass, it was recently reported in The New York Times, 
page 1, above the fold, Wednesday, November 4th, China is 
burning much more coal than it claimed. Article states, even 
for a country of China's size, the scale of the correction is 
immense. The sharp upward revision in official figures means 
that China has released much more carbon dioxide, almost a 
billion more tons a year, than previously estimated. A billion 
more tons a year than estimated. The increase alone is greater 
than the whole German economy emits annually from fossil fuels.
    So how does this impact the Chinese INDC submission and 
should we be premising U.S. action based on a promise from 
China, when they can't even accurate count or won't accurately 
account their coal consumption?
    Mr. Cass. Thank you, Senator. I think the Chinese 
restatement is an important fact, because in that very article 
they actually quote China's climate advisor, somewhat smugly 
noting this makes it even easier for them to meet their target.
    China has never committed to a level that its emissions 
will peak at; it has never committed to how its emissions will 
decline after that. So by after having already put out its 
commitment, noting, oh, and actually we are burning a lot more 
coal than we told you, they are in fact making it that much 
easier to meet a goal that they were on track to meet anyway, 
without actually making any changes to their policy.
    Senator Barrasso. But it sounds like the cost and 
concessions to be made by the U.S. in the agreement with China 
are much more real than what China is ever going to do, and 
ours have to be done before 2025 and China can continue to go 
to peak in the year 2030.
    Mr. Cass. That is correct. And I think what is most 
concerning about that in some respects is that we have heard so 
much at this hearing about the importance of U.S. leadership 
and about this process we have moved forward with that requires 
what is essentially called naming and shaming. The premise of 
getting action from the developing world is that we are going 
to call out those who do not commit to action and shame them 
into action. Now, whether that was ever a good idea or not, it 
is how we have proceeded; and yet the talking points from the 
most vocal advocates of climate action are now that the China 
is doing a great job.
    Senator Barrasso. And, Mr. Eule, if I could ask you if a 
sophisticated country like China can't keep up with its 
emissions, what level of confidence do we have that other 
countries with fewer resources and capacity will be able to or 
willing to produce a reliable system for measuring, reporting, 
and verifying emission reduction activities?
    Mr. Eule. In the Chinese experience, my guess is nothing 
new. I think there are a lot of developing countries that don't 
have a handle on how much greenhouse gas emissions they are 
actually emitting. So it is an excellent question, and I am not 
quite sure at this point that measuring, reporting, and 
verification can be set up so that we can, with assurance, 
guarantee that the emission cuts they have promised are 
actually going to be delivered.
    Senator Barrasso. And then a question for both of you, if 
you could. There was a recent opinion piece in The Wall Street 
Journal by Bjorn Lomborg, who many of you are familiar with, 
noted that in the run-up to the negotiations, he says, rich 
countries and development organizations are scrambling to join 
the fashionable ranks of climate aid, of the donors. This 
effectively means telling the world's worst off people, 
suffering from tuberculosis, malaria, malnutrition, that what 
they really need isn't medicine, isn't mosquito nets, or 
micronutrients, but a solar panel.
    Could the ultimate effect of the negotiations make it 
actually harder, harder for countries to raise their own people 
out of the abject poverty in the name of climate change?
    Mr. Cass. I think that is certainly a concern, and I think 
Senator Wicker called attention to the fact that the U.K., 
under pressure to provide climate finance, has simply said, OK, 
we will shift our other develop aid into climate finance.
    I think the good news for people in developing countries is 
that their own leaders are refusing to prioritize emissions 
cuts over economic growth. The bad news is that the developed 
world, for the sake of getting a signed piece of paper, may 
reorient their own aid toward solar panels instead of drinking 
water.
    Senator Barrasso. Mr. Eule.
    Mr. Eule. Mr. Cass said essentially what I was going to 
say. The simple fact is when you look at what developing 
countries are doing, they have set their priorities, and their 
priorities are economic development, poverty eradication, and 
energy access; it is not about addressing greenhouse gas 
emissions. And I think that is going to be the way it will be 
for the foreseeable future.
    Senator Barrasso. Thank you.
    Thank you, Madam Chair.
    Senator Capito. Thank you.
    Senator Carper, anything else?
    Senator Carper. If I could make a unanimous consent request 
to put in the record, Madam Chairman, a copy of the U.S. 
pledges for the general climate fund, which actually appear to 
be around $3 billion, instead of the $45 billion quoted 
earlier.
    I would just say to my friend from Wyoming, you missed 
this, but we have a number of States. I was born in one that 
produced a lot of coal, and as we go forward and try to figure 
out how to deal with this issue of climate change and global 
warming, we need to be mindful how do we help the States that 
will be adversely affected, just as we try to help the low-
lying States that are in danger of being drowned.
    And I would say if we don't provide leadership, the rest of 
the world, they are not going to do much at all. Why should 
they? If we do provide leadership, we have a shot, we have a 
chance.
    Thank you.
    Senator Capito. Thank you.
    Thank you again to the panel and thank all those who 
attended, and I will call this hearing adjourned.
    [Whereupon, at 11:27 a.m. the hearing was adjourned.]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                                 [all]



</pre></body></html>
